                                 Report No. 06-INTEL-14
                                     September 20, 2006
                                         Summary Report



      DEPARTMENT OF DEFENSE
             OFFICE OF
        INSPECTOR GENERAL




DEPUTY INSPECTOR GENERAL FOR INTELLIGENCE

 FY 2005 Summary Report of Inspections on
    Security, Technology Protection, and
Counterintelligence Practices at DoD Research,
 Development, Test and Evaluation Facilities
Additional Information and Copies

To obtain additional copies of this report, contact Mr. Donald A. Ragley at (703)
604-8896 (DSN 664-8896) or fax (703) 604-0045.

Suggestions for Future Evaluations

To suggest ideas for or to request future evaluations of Defense intelligence issues,
contact the Office of the Deputy Inspector General for Intelligence at
(703) 604-8896 (DSN 664-8896) or fax (703) 604-0045. Ideas and requests can
also be mailed to:

              Office of the Deputy Inspector General for Intelligence
               Department of Defense Office of Inspector General
                        400 Army Navy Drive (Room 703)
                            Arlington, VA 22202-4704
               Department of Defense Office of Inspector General
Report No. 06-INTEL-14                                               September 20, 2006
 (Project No. D2006-DINT01-0227)

          Report on FY 2005 Summary Report of Inspections on
         Security, Technology Protection, and Counterintelligence
            Practices at DoD Research, Development, Test, and
                           Evaluation Facilities

                                   Executive Summary

Who Should Read This Report and Why? DoD civilian and military personnel who
are responsible for, supervise any aspect of, or provide support for protecting technology
in DoD laboratory facilities should read this report. This report summarizes significant
results of 29 inspections of security, technology protection, and counterintelligence
practices at DoD research, development, test, and evaluation facilities by the Inspectors
General of the Army, Navy, Air Force, and the Director, Program Integration, Internal
Management Review during FY 2005.

Background. On May 8, 2002, the Inspector General, DoD; the Deputy Under Secretary
of Defense for Laboratories and Basic Sciences; the Director, Operational Test and
Evaluation; the Service Inspectors General; and the Director, Program Integration,
Internal Management Review, Missile Defense Agency signed a memorandum of
understanding on security, technology protection, and counterintelligence inspections.

The memorandum of understanding requires participating inspectors general and the
Director, Program Integration, Internal Management Review, Missile Defense Agency, to
prepare and forward to the DoD Office of the Inspector General any significant findings
and recommendations at the end of each inspection. The DoD Office of the Inspector
General issues a summary report of inspections of security, technology protection, and
counterintelligence practices at DoD research, development, test, and evaluation
facilities. The facilities inspected are listed in Appendix B.

Results. The Offices of the Inspectors General and the Director, Program Integration,
Internal Management Review, Missile Defense Agency did not identify significant
systemic deficiencies that would threaten program security; however, they did identify
areas that needed attention and made suggestions for improvements in those areas.

Management Comments. We issued a draft of this report on August 11, 2006. No
written response to this report was required, and none was received.




                         FOR OFFICIAL USE ONLY
Table of Contents

Executive Summary                              i

Background                                     1

Objective                                      1

Inspection Results for FY 2005
     A.   Army                                 2
     B.   Navy                                 5
     C.   Air Force                            7
     D.   Missile Defense Agency               7

Appendixes
     A.   Scope and Methodology                9
     B.   List of Facilities Inspected        10
     C.   Memorandum of Understanding         11
     D.   Report Distribution                 15




                      FOR OFFICIAL USE ONLY
Background
    In early 1999, then-Deputy Secretary of Defense, Dr. John Hamre directed the
    Service Inspectors General to survey the counterintelligence and security
    programs at more than 60 research, development, test and evaluation facilities.
    The inspection teams identified a number of recommendations related to the
    specific sites. As a result of these efforts, Dr. Hamre chartered an Overarching
    Integrated Process Team to better frame the recommendations and to oversee their
    implementation. From February 12 to May 12, 2000, Dr. Hamre and his
    successor, Mr. Rudy DeLeon, signed a total of seven memoranda containing
    27 tasks aimed at enhancing counterintelligence and security support to research,
    development, test and evaluation facilities and the acquisition process.

    On February 17, 2000, Dr. Hamre signed a memorandum requesting that the DoD
    Office of Inspector General ensure that a uniform system of periodic reviews,
    through the existing agency and Service inspection processes, be performed for
    compliance with directives concerning security, technology protection, and
    counterintelligence practices. These reviews were to assist with the protection of
    the technology-dependent cutting edge of U.S. weapon systems. The
    memorandum also requested that the Office of Inspector General develop
    inspection list guidelines for Department-wide Inspectors General to enhance
    consistency.

    On May 8, 2002, the DoD Inspector General; the Deputy Under Secretary of
    Defense for Laboratories and Basic Sciences; the Director, Operational Test and
    Evaluation; the Service Inspectors General; and the Director, Program
    Integration, Internal Management Review (formerly Internal Assessments),
    Missile Defense Agency signed a memorandum of understanding on security,
    technology protection, and counterintelligence inspections.

    The memorandum of understanding requires participating inspectors general to
    prepare and forward to the DoD Office of Inspector General any significant
    findings and recommendations at the end of each inspection. The DoD Office of
    Inspector General issues a summary report of inspections of security, technology
    protection, and counterintelligence practices at DoD research, development, test,
    and evaluation facilities.

    On February 28, 2006, the Office of the Deputy Inspector for Intelligence issued
    revised inspection guidelines, “Inspection Guidelines for DoD Research and
    Technology Protection, Security and Counterintelligence for 2006,” Report No.
    O6-INTEL-03.


Objective
    The overall objective was to consolidate and report the inspection results and best
    practices of participating inspectors general. See Appendix A for a discussion of
    the scope and methodology.


                                         1
                      FOR OFFICIAL USE ONLY
            A. Army
            During FY 2005, representatives from the Army Office of the Inspector
            General inspected 3 Contractor Owned-Contractor Operated and
            10 Government Owned-Government Operated facilities out of 61 Army
            research, development, test, and evaluation facilities supporting Army
            programs. Specific aspects of Physical Security and Personnel Security
            were part of the six functional areas inspected. The inspections found
            weaknesses in information security and information assurance practices
            and that personnel were not trained in aspects of the physical security and
            personnel reliability program.


Personnel Security
     No significant issues or trends.


Information Security
     Information security controls specified in Army Regulation 380-5,”Information
     Security,” September 29, 2000, presented challenges of noncompliance in five of
     seven facilities inspected. Improperly marked documents and a failure to conduct
     end-of-day security checks represented most of the shortcomings and may reflect
     poor understanding and retention of required security training. Additionally, a
     lack of established and tested emergency action plans failed to address
     organizational procedures to secure, safeguard, and preserve essential information
     files in the event of an incident requiring evacuation of facilities.


Information Assurance
     Information assurance continues to present challenges to Army research,
     development, test, and evaluation facilities. Many of the issues associated with
     shortfalls in information security programs translate into similar noncompliance
     in the information technology sphere. Inspected organizations often relied on
     poorly thought out continuity of operations plans or lacked them altogether. This
     can represent a significant risk to the reestablishment of operations and
     reconstitution of data stored electronically in the event of damage to a facility and
     its equipment. Inspectors also observed problems with access controls and
     improperly applied protective measures such as passwords, anti-virus software
     updates, and Information Assurance Vulnerability Management. In some cases,
     the absence of an effective information assurance oversight structure, manned by
     qualified personnel as part of an integrated and synchronized team, contributed to
     the negative impact of these shortcomings.



                                           2
                       FOR OFFICIAL USE ONLY
Physical Security
     Currently, no formalized training is offered to security specialists who are
     responsible for guarding chemical agents. Although the U.S. Army Military
     Police School does offer a physical security course, it does not cover the unique
     requirements associated with surety sites. Consequently, many of the Department
     of the Army civilian security specialists that are required to ensure the security of
     chemical sites are not adequately trained to perform their duties. This is a repeat
     finding. This condition will be exacerbated as biological research facilities that
     use select agents and toxins implement the new biological surety program. The
     following are some of the deficiencies noted during recent inspections, which an
     adequate training program could have prevented:

            •   Higher headquarters did not process required annual reviews of
                vulnerability assessments and physical security plans in a timely
                manner;

            •   Key Control Officers failed to properly document returned surety
                locks and keys.

            •   Key Control Officers failed to maintain surety key and lock chain
                accountability by allowing alternative Key Control Officers to
                concurrently perform receipt and issue activities.

            •   Key Control Officers failed to properly fill out Key Control Register
                and Inventory (DA Form 5513R) and Hand Receipt/Annex Number
                (DA Form 2062).


Operations Security
     Many facility operations security programs lack rigor and detail in execution and
     are based on poorly articulated Essential Elements of Friendly Information. This
     lack is compounded by a failure to identify specific critical information requiring
     protection which, in turn, leads to generic operations security measures
     (countermeasures).


Personnel Reliability Program Training
     As documented in the DoD Inspector General Draft Report, “The Nuclear
     Weapons Personnel Reliability Program,” May 7, 2004, and validated during
     recent inspections, the Services failed to establish formal training for the
     personnel reliability program. In many cases, this lack of formal training is
     producing Reviewing Officials, Certifying Officials, Surety Monitors, Surety
     Officers, and Competent Medical Authorities, who are not prepared to effectively
     execute their Personnel Reliability Program duties. Specifically, they failed to


                                           3
                       FOR OFFICIAL USE ONLY
   recognize and appropriately act upon potentially disqualifying information that
   would make individuals ineligible for the personnel reliability program.


Summary
   Deficiencies in physical security include a repeat finding of a lack of a formal
   training program for security specialists who are responsible for guarding
   chemical agents. The Army had not made any improvements since inspectors
   first identified this problem. Initial vulnerability assessments did not include all
   of the buildings containing chemical surety materiel and required annual reviews
   of vulnerability assessments and physical security plans were either not
   performed or occurred out of sequence. Additionally, Key Control Officers failed
   to properly document returned surety locks and keys, maintain surety key and
   lock chain accountability by allowing alternative Key Control Officers to
   concurrently perform receipt and issue activities, and failed to properly fill out
   Key Control Register and Inventory (DA Form 5512R) and Hand Receipt/Annex
   Number (DA Form 2062). Because the Army did not establish formal training for
   the Personnel Reliability Program, many reviewing officials, certifying officials,
   surety monitors, surety officers, and competent medical authorities, are not
   prepared to effectively execute their Personnel Reliability Program duties.
   Specifically, they failed to recognize and appropriately act upon potentially
   disqualifying information that would make individuals ineligible for the
   Personnel Reliability Program.




                                        4
                     FOR OFFICIAL USE ONLY
            B. Navy
            Representatives from the Office of the Naval Inspector General inspected
            7 of 31 Naval research, development, test, and evaluation facilities, and
            investigated multiple levels of security, technology protection,
            counterintelligence, and international security. Of the seven commands
            inspected, only two reported problems with overall security programs and
            processes, while a third noted deficiencies in information assurance. Both
            of the facilities with notable issues also reported that, in many cases, the
            same problems had been identified at least once on a prior review or
            inspection. Most installations reported opportunities for improvement,
            particularly in the areas of operations security, physical security,
            information security, information assurance, and antiterrorism/force
            protection. Of note, several of these topic areas were also cited in last
            year’s summary report.


Security (General) and Physical Security
     Several of the facilities inspected identified augmentation to guard force staff as a
     concern, which in some instances required the host command/installation to
     provide additional personnel or support to tenant research, development, test, and
     evaluation facilities. To better document these requirements, the Naval Inspector
     General supported establishing agreements, as needed, to better delineate
     security-related responsibilities between tenant research, development, test, and
     evaluation facilities and host commands/installations. Other improvements also
     reported as under consideration include the use of the appropriate levels of
     security lighting, along with adequate monitoring mechanisms and tools. Finally,
     the development and use of a threat matrix, or updated physical security plan, was
     recommended for several commands inspected during FY 2005.


Information Security and Information Assurance
     Several facilities reported issues relating to information security. These issues
     ranged from varying levels of compliance with existing policies to the need for
     local facility personnel to have better program awareness. Accreditation of
     systems, and appropriate training were also identified as areas for improvement in
     the area of information assurance.




                                           5
                       FOR OFFICIAL USE ONLY
Antiterrorism/Force Protection
     Several of the installations noted the need for an assigned antiterrorism/force
     protection officer, which could explain why the need for a current
     antiterrorism/force protection plan was also cited as a finding in some facility
     inspections. Also, at least one facility did not implement or use random
     antiterrorism measures.


Summary
     Despite some concerns, the majority of inspected research, development, test, and
     evaluation facilities reported no significant deficiencies. Where unsatisfactory
     findings were identified, in most cases the inspectors observed that they had
     already been documented in earlier inspections. Constrained resources
     (e.g. funding and personnel) were a major contributing factor. In addition,
     although the impact was not explicitly stated in most inspection reports,
     continuing to operate with deficient security processes and procedures may
     contribute to an increased risk to information, assets, and personnel.
     Notwithstanding, a positive common theme was that, at most facilities, the
     security programs appeared to be well implemented and effectively managed.
     This theme is complementary to the revitalization observed last year in several
     security program areas (e.g. education, policy, and industrial security).




                                          6
                       FOR OFFICIAL USE ONLY
            C. Air Force
            Representatives from the Air Force Office of the Inspector General
            inspected 8 out of 76 Air Force research, development, test, and
            evaluation facilities. The units were meeting the intent of DoD and Air
            Force security and technology protection requirements and no significant
            systemic problems existed that would threaten program security.

            D. Missile Defense Agency
            Representatives from the Missile Defense Agency inspected the Joint
            National Integration Center, focusing on the overall management and
            control of personnel security for civilian and military personnel.


Personnel Security and Access Controls
     Recent inspections noted the following deficiencies:

            •   While informal policies and procedures were in place, management,
                administration and personnel security controls needed improvement
                because written policies and procedures were lacking.

            •   An internal database used to manage the security clearance process
                was incomplete and inaccurate.

     The following recommendations were made to enhance the personnel security
     program:

            •   Complete and publish personnel security guidance and procedures to
                improve the management and control of the personnel program and
                access controls.

                   - Establish personnel security policy for classification
                     sensitivity; initiate security investigations and reinvestigations,
                     as needed; authorize appointment of persons to sensitive
                     positions for a limited time; and grant interim clearances for
                     Top Secret and Secret access to classified information;

                   - Establish agency procedures for key activities such as access
                     and suspension of access to various types of restricted
                     information; interim clearances; position sensitivity upgrades;
                     and personnel security database management; and

                   - Assign personnel security program responsibilities.




                                         7
                      FOR OFFICIAL USE ONLY
          •   Develop and implement internal procedures to provide appropriate
              access and database reconciliation.

          •   Assess the adequacy of internal controls over personnel security
              during the annual review of internal controls.


Summary
   While there were no significant findings, opportunities for improvement existed
   in the management, administration, and control over the personnel security and
   personnel out-processing programs.




                                       8
                    FOR OFFICIAL USE ONLY
Appendix A. Scope and Methodology
           This report covers inspections of security, technology protection, and
           counterintelligence activities at DoD research, development, test and evaluation
           facilities conducted by or at the direction of the participating Inspectors General,
           as outlined in the memorandum of understanding at Appendix C. The
           participating Inspectors General prepare and forward to the DoD Office of
           Inspector General 1 lists of the research, development, test and evaluation facilities
           in their organizations that may be inspected. The DoD Office of Inspector
           General consolidates and distribute the lists to the participating Inspectors
           General, the Deputy Under Secretary of Defense for Laboratories and Basic
           Sciences, and the Director, Defense Operational Test and Evaluation. The
           Deputy Under Secretary of Defense for Laboratories and Basic Sciences and the
           Director, Defense Operational Test and Evaluation may recommend additional
           Defense agency facilities that should be inspected.

           Participating Inspectors General inspect or direct the inspection of the research,
           development, test and evaluation facilities of their respective organizations. The
           inspections are performed during inspection programs of the participating
           Inspectors General, to include, in the case of military Inspectors General, the
           inspection programs of their subordinate Inspectors General. By June of each
           year, the participating Inspectors General prepare and forward to the DoD Office
           of Inspector General lists of the facilities that will be inspected during the
           following fiscal year. The DoD Office of Inspector General consolidates and
           distributes the lists to the participating Inspectors General. To ensure uniformity
           and consistency of inspections, the participating Inspectors General coordinate
           modifications of the inspection guidelines. The participating Inspectors General
           conducting or directing inspections ensure that inspection findings and
           recommendations are addressed and implemented.

           The participating Inspectors General use their own procedures to write findings
           and recommendations within their respective areas of responsibility. The
           participating Inspectors General prepare and forward any significant findings and
           recommendations upon the conclusion of each inspection to the DoD Office of
           Inspector General. The DoD Office of the Inspector General distributes
           significant findings, as appropriate, and in coordination with the other
           participating Inspectors General, develops this overarching report.




1
    The Office of the Deputy Inspector General for Intelligence is the Office of Primary Responsibility within
    the DoD Office of the Inspector General for matters relating to inspections of research, development, test
    and evaluation facilities.

                                                       9
                                FOR OFFICIAL USE ONLY
Appendix B. List of Facilities Inspected
    Army
    1.  Army Research Laboratories-Cleveland, Cleveland, Ohio
    2.  Battelle Hazardous Material Research Center, Columbus, Ohio
    3.  Battelle Medical Research and Evaluation Facility, Columbus, Ohio
    4.  Communications-Electronics Research Development and Experimentation
        Center, Fort Monmouth, New Jersey
    5. Dugway Proving Ground, Dugway, Utah
    6. Engineering Research and Development Center, Alexandria, Virginia
    7. Medical Research Institute of Infectious Diseases, Fort Detrick, Maryland
    8. Missile Defense and Space Technology Center, Huntsville, Alabama
    9. Night Vision Electronic Sensors Directorate, Fort Belvoir, Virginia
    10. Redstone Technical Test Center, Huntsville, Alabama
    11. Southwest Research Institute, San Antonio, Texas
    12. Tank-Automotive Research Development and Experimentation Center,
        Warren, Michigan
    13. Topographic Engineering Center, Fort Belvoir, Virginia

    Navy
    1. Naval Explosive Ordnance Disposal Technology Division, Indian Head,
       Maryland
    2. Naval Research Laboratory, Washington, District of Columbia
    3. Naval Sea Systems Command, Washington Navy Yard, District of Columbia
    4. Naval Surface Warfare Center, Carderock Division, West Bethesda, Maryland
    5. Naval Surface Warfare Center, Indian Head Division, Indian Head, Maryland
    6. Naval Surface Warfare Center, Panama City, Florida
    7. Space and Naval Warfare Systems Center, Charleston, South Carolina

    Air Force
    1.   Air Force Materiel Command, Arnold Engineering Development Center,
         Arnold Air Force Base, Tennessee
    2.   Air Force Materiel Command, Air Force Flight Test Center, Edwards Air
         Force Base, California
    3.   Air Force Materiel Command, Air Force Research Laboratory, Edwards Air
         Force Base, California
    4.   Air Force Materiel Command, Edwards Test Range, Edwards Air Force
         Base, California
    5.   Air Force Materiel Command, Air Force Research Laboratory, Kirtland Air
         Force Base, New Mexico
    6.   Air Force Materiel Command, Air Force Research Laboratory, Kirtland Air
         Force Base, New Mexico
    7.   Air Force Materiel Command, Warner-Robins Air Logistics Center,
         Warner-Robins Air Force Base, Georgia
    8.   Air Force Materiel Command, Air Force Research Laboratory Site, Warner-
         Robins Air Logistics Center, Warner-Robins Air Force Base, Georgia

    Missile Defense Agency
    Joint National Integration Center


                                        10
                     FOR OFFICIAL USE ONLY
Appendix C. Memorandum of Understanding




                    11
           FOR OFFICIAL USE ONLY
         12
FOR OFFICIAL USE ONLY
         13
FOR OFFICIAL USE ONLY
         14
FOR OFFICIAL USE ONLY
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Intelligence
Deputy Under Secretary of Defense for Laboratories and Basic Sciences*
Director, Defense Test Resource Management Center*

Department of the Army
Inspector General, Department of the Army*

Department of the Navy
Naval Inspector General*

Department of the Air Force
Inspector General, Department of the Air Force*

Other Defense Organizations
Director, Program Integration, Internal Management Review, Missile Defense Agency*

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Select Committee on Intelligence
Senate Committee on Governmental Affairs
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Permanent Select Committee on Intelligence
House Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform

* Recipient of draft report.




                                          15
Team Members
The Department of Defense Office of the Deputy Inspector General for
Intelligence, prepared this report. Personnel of the Department of Defense Office
of Inspector General who contributed to the report are listed below.

Shelton R. Young
Donald A. Ragley
David Ingram
Jacqueline Pugh




                                   16
                 FOR OFFICIAL USE ONLY
